Court of Appeal. Third Appellate District
Andrea K. Wallin-Rohmann. Clerk
Electronically FILED on II /15/2019 by M. Chavez. Deputy Clerk

NOT TO BE PUBLISHED

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Butte)

C084543

THE PEOPLE,

(Super. Ct. No. 16CF03069)

Plaintiff and Respondent,
v.
ROBERT LEE SIMMS,
Defendant and Appellant.

Defendant Robert Lee Simms contends his conviction for first degree burglary
must be reversed because the People failed to prove an adequate chain of custody for the
DNA evidence presented. He adds that the trial court abused its discretion by denying his
request to strike his prior strikes. (People v. Superior Court (Romero) (1996) 13 Cal.4th
497.) In supplemental briefing, he claims remand is required due to the changes in the
law resulting from the passage of Senate Bill No. 1393.

1

X

A

We agree only with the final contention, and remand for exercise of discretion and
possible resentencing. We otherwise affirm.
FACTUAL AND PROCEDURAL BACKGROUND
An information charged defendant with first degree residential burglary. (Pen.
Code, § 459.)1 It also alleged three prior serious felony convictions (§ 667, subd. (a)(1)),
four prior prison terms (§ 667.5, subd. (b)), and three prior strikes (§§ 667, subd. (d),
1170.12, subd. (b)). After a trial at which defendant represented himself, the jury found
him guilty of first degree burglary. In a bifurcated proceeding, the trial court found true
that defendant had two prior strikes and four prior prison terms, but found one alleged
prior serious felony and prior strike not true. After denying defendant’s Romero motion,
the court sentenced defendant to 25 years to life in prison plus 12 years.
Trial Evidence
On December 9,2015, G.Y. left her home in Chico in the morning, locking the
front door behind her; the home was in an orderly condition. Later that day, Chico police
received a report of a burglary at the residence. Chico Police Officer Cedric Schwyzer
responded to the call. He found the front door open and a window broken. The home
appeared to have been ransacked and blood smears covered the light switches.
Chico Police Officer Keith Parsons was the crime scene investigator. He collected
blood samples from three light switches. For each location, he took a control sample
swab of distilled water, a swab of the background of the blood, and a swab of the blood
itself. He put each swab in its own envelope and taped the envelope shut. He then
transported the samples back to the Chico Police Department, filled out the requisite
form, and booked the samples into the property system.

1 Further undesignated statutory references are to the Penal Code.
2

Officer Parsons filled out a “Physical Evidence Submission Form” (also called the
BFS1 form), which is used to submit evidence to the California Department of Justice
(DOJ) for evaluation. The form lists the items submitted and requests a DNA analysis for
each item. At the bottom of the form is a space captioned “Chain of custody for items
listed above,” with a box labeled “Received from” and another box labeled “Delivered
to.” The first box was signed by “S. Bennett” (Sue Bennett), the Chico Police
Department’s evidence property technician; the second box was signed by “S. Kayser”
(Susan Kayser) of the Chico DOJ laboratory and dated December 29, 2015.
On January 13,2016, DOJ’s Redding laboratory received a submission from the
Chico laboratory via Federal Express. The submission contained the blood swabs taken
from G.Y.’s home; one was tested.2
When the Redding laboratory receives items from a laboratory, they are stored in
the laboratory’s evidence vault until a criminalist is assigned to analyze them.
Criminalist MaryJo Olegario took the swab from the evidence vault to test it for DNA.3
Olegario obtained a “DNA profile” on the swab by analyzing 15 locations, or
“regions,” using the polymerase chain reaction process, which is generally accepted by
the scientific community. Once established, a DNA profile is compared to a reference
sample to determine whether an individual can be included or excluded as a contributor
to the sample; a mismatch at just one region will exclude a person as a contributor.

2 The record is unclear as to why only one sample of blood from the house was tested
but defendant raises no issue on appeal concerning this fact. Nor does he head and argue
any challenge to the trial court’s admitting various reports and testimony regarding the
writings on the envelopes and the meaning thereof.
3 Defendant asserts in his briefing that Olegario processed “the swabs” from the light
switches. As we explain, Olegario did process more than one swab, but the others were
“reference oral swabs” taken later from defendant while he was in custody. Her
testimony makes clear that she processed only one swab (identified as KP-3) that was
sourced from the light switches.
3

DOJ maintains a DNA database called CODIS (Combined DNA Index System),
containing evidence samples or “forensic profiles,” including “profiles that were
submitted from other unknown sources of DNA from crime scenes” and “DNA profiles
from offenders.” Once a DNA profile is obtained, the laboratory uploads it, then sends it
to the state database for searching at the state and national levels.
Olegario furnished a report on her findings to the Chico Police Department on
June 6,2016. The report did not identify any suspect but stated that a CODIS search
would follow.
On June 13,2016, Chico Police Detective Dane Gregory was assigned to the case
to “identify a subject that was identified as a suspect via a CODIS hit from a DNA
sample, blood sample, obtained at [G.Y.’s residence]... on the day of the burglary.”
The laboratory report for the CODIS hit indicated that the blood sample obtained did not
produce an initial match, but after it was submitted to CODIS, it was identified as likely
belonging to Robert Lee Winston, identified by date of birth.
Using the “criminal index number” associated with Robert Lee Winston and
checking the state database for records of prior arrests, Detective Gregory found “nine
names associated with the same criminal identifying number, multiple aka’s ... for
Robert Lee Winston as Mr. Robert Simms [i.e., defendant].” Five of the nine “aka’s”
were variations of Robert Lee Simms. By cross-referencing other numbers associated
with the records of prior arrests (social security numbers, driver’s license numbers, “FBI
number”) with DMV photographs and booking photographs from other agencies,
Gregory determined that Robert Lee Winston and defendant were the same person.
Defendant was arrested on July 12,2016 at the scene of another residential
burglary.
On July 18,2016, Gregory obtained a search warrant to take buccal swabs from
defendant for comparison to the DNA identified by DOJ. Later that day, Gregory took
two swabs from defendant at Butte County Jail. He booked them into Chico Police
4

Department evidence on July 20,2016, using a BSF1 form. Sue Bennett signed the form
on behalf of the department and submitted the swabs to DOJ, and a DOJ employee at the
Chico laboratory signed the form on the same date to show receipt.
Olegario received the buccal swab samples in Redding by Federal Express from
the Chico laboratory on July 28,2016, and analyzed them. In a report dated August 22,
2016, she notified the Chico Police Department that the samples provided “strong
evidence” that defendant was the source of the blood from the light switch in G.Y.’s
home. She confirmed at trial that the DNA from the two sets of samples, the blood and
the buccal swabs, “matched.” Gregory received the report in September 2016.
DISCUSSION
I
Chain of Custody
Defendant contends (1) the trial court abused its discretion when it admitted the
DNA evidence without holding the prosecution to its burden of proof as to the chain of
custody, instead shifting the burden to defendant; (2) the court applied the wrong
standard in admitting the evidence; (3) the prosecution’s chain of custody evidence was
insufficient to meet its burden, thus the DNA evidence should have been excluded; and
(4) the error requires reversal. We are not persuaded.
A. Background
Defendant moved orally in limine to exclude any DNA evidence gleaned from the
blood samples on the basis that the People could not show an adequate chain of custody,
stating correctly that the prosecution had the burden of proof. His oral motion did not
mention the buccal swabs. The prosecutor incorrectly countered that all chain of custody
questions “would go to [the samples’] weight and not their admissibility.”
The trial court asked defendant if he had evidence to show a break in a “vital link”
of the chain of custody. Defendant said he did.

5

The trial court stated: “[W]hat I would anticipate you would want to do is
establish whatever question you would want as to the chain of custody and then argue
that in closing argument that it goes to the weight.” Defendant said he wanted to
challenge the evidence’s admissibility before it got to the jury, then added: “[TJhere’s 15
days unaccounted for.” The court reiterated its (incorrect) view that “blood samples are
considered admissible and questions as to the chain of custody go[] to the weight of that
evidence.”
Defendant replied: “I have the evidence now, and I would like to be heard on it.”
The court said: “Go ahead.”
Defendant stated: “I have the original police report by Parsons who will be
testifying today and the property receipt and I have [the] supplemental report. He’s the
one who collected the samples. I have a receipt of those samples into [the] property
room. I have his admission submission form to the DOJ. And I have the DOJ first DNA
report.”
The trial court asked what defendant intended to do with those documents.
Defendant replied: “My intention is to show that three days elapsed from the time they
were taken off the switch until they got to evidence. [^] Then they went into evidence
and [Schwyzer] checked them out on 12-29-2015. And, obviously, for 15 days we have
no idea where they went because the report from the DOJ lab — I believe taken out of
evidence from 12-29-15 and I quote from... physical evidence examination of...
[Olegario:] [f] [‘]The following evidence was submitted to this laboratory by Susan
Kaiser of the Bureau of Forensic Services Chico Laboratory and was received on
January 13th.[’] That’s 15 days from the time they left the evidence room and they do
not go directly to the Redding lab; they go to [the] Chico laboratory on the 29th. No
slips, no nothing saying who received them there or anything, and they do not resurface
again until January 13th, 2016. [f] So three days from light switch to the evidence room
is unaccounted for and then 15 days from time they were taken by [Schwyzer] on 12-29.
6

He altered his report on 12-30. So he took the DNA out on 12-29. They went to Chico
laboratory. Stayed there for two weeks, 15 days[,] and then showed up at the Redding
laboratory]. So they didn’t [go] directly to Redding laboratory as professed to be and
then the document is altered, but it’s still 15 days missing.”
The prosecutor responded: “Well, the swabs were checked into the... Chico
Police Department’s evidence on 12-9, the very day they were collected, the very top of
the receipt form has the date on it. [f] This particular form wasn’t printed out. It says
printed on Saturday, December 12th, but they were in evidence on the 9th. On the 29th
of December, the DOJ picked them up from the Chico Police Department. This is DOJ
S. Kaiser, with a signature from the DOJ. And it’s Evidence Technician Bennett Chico
Police Department whose signatures are [on] the PES, the Physical Evidence Submission
Form. fl[] They then go to the Chico laboratory, and the Chico laboratory sends them to
the Redding laboratory via Federal Express and they are received in Redding on the 13th
of January, [f] So [defendant] would have to show that they were not properly kept by
those laboratories or by the Chico Police evidence section in order to show a significant
break in the chain of custody. They were in the custody ofthe Chico Police Department
or the Department ofJustice the entire time.” (Italics added)
Defendant asserted that the document the prosecutor was looking at was the
“wrong sheet,” because it concerned the buccal swab, not the blood swabs. The
prosecutor countered that it was the “right sheet.” Defendant said nothing else
specifically about the buccal swabs. After reiterating that “the People will still need to
establish chain of custody through their testimony,” the trial court “at this point” denied
defendant’s motion to exclude the evidence. The court found that “the samples of blood
from the light switches can be offered into evidence or testimony as to that in case [s/c]
and... the issue of chain of custody will go to weight of that evidence.” The court did
not mention the buccal swabs, and neither party raised them.

7

The prosecutor called Parsons, Gregory, and Olegario to establish chain of
custody. They testified as indicated above.
Defendant did not raise any questions about chain of custody in cross-examining
Parsons, other than to elicit that Parsons did not himselfcreate the signatures of the Chico
Police Department and DOJ employees that were affixed to the BFS1 form he turned in
with the blood samples. Defendant also did not raise any questions about chain of
custody as to the blood samples in cross-examining Gregory, other than to establish that
Gregory was not in their chain of custody.
During Olegario’s testimony, defendant objected (on the purported ground
“Assumes irregularity”) to her statement that she “believe[d]” the Chico laboratory
received the samples to test from the Chico Police Department. The trial court overruled
the objection. Defendant objected again, without specifying grounds, when the
prosecutor offered Exhibit 15, the BSF1 form for the blood swab including annotations.
The court overruled the objection.4
On cross-examination, Olegario testified that all of the evidence originally
submitted to her (Redding) laboratory (the blood samples and other samples taken from
the residence) was returned to the Chico laboratory after she completed her analysis.
Defendant then questioned Olegario about the time sequence of the transmission of the
blood swab from the Chico Police Department to the Chico laboratory to the Redding
laboratory. She testified that the DOJ employee at the Chico laboratory wrote on the
BSF1 form that the swab was delivered to that laboratory on December 29,2015 and that
it was received in Redding on January 13, 2016, by Federal Express from Chico.
Defendant did not object to or otherwise challenge any of this testimony.

4 Defendant does not challenge any of these evidentiary rulings on appeal, only the
general ruling finding the DNA evidence admissible.
8

Defendant asked if that meant there was a total of 15 days from the day the swab
left the evidence room until it reached the Redding laboratory. Olegario answered: “Not
necessarily. So I’m not exactly sure on the date that they sent it out. So when they
received it, they probably put it into DNA evidence storage, and when they sent it out,
they removed it from the evidence storage and then sent it via Federal Express.” All she
could be sure of is that it was sent sometime between December 29 and January 13.
Olegario agreed that she did not know “how it was packaged at Chico Laboratory [or]
who packaged it.” When her laboratory received the swab, she followed the standard
protocols for processing evidence.
After the parties rested and the trial court addressed the admissibility of the
exhibits identified at trial, defendant objected to the admission of Exhibit 14, Olegario’s
August 22,2016 report identifying the buccal swab as a DNA match to the blood sample.
He couched his objection as “[c]hain of custody,” but asserted only that it had not been
shown the buccal swabs came from him (“It’s not me. The buccal swabs are not me that
she tested”) and then added “inadequate foundation for the chain of custody for the
DNA.” The court overruled the objection without explanation, telling defendant that he
could “argue that.” Defendant also objected to the admission of Exhibit 16, the BSF1
form used to originally submit the buccal samples for comparison to the already tested
blood samples, stating he had the “same objection” as to Exhibit 14, but without
elaborating; the court summarily overruled that objection as well, again telling defendant
he could “argue that.” Defendant did not object to the admission of the exhibit (Exhibit
15) that concerned the blood samples.
In his closing argument, defendant asserted that it was unclear why the Chico
laboratory did not test the blood samples instead of sending them on to the Redding

9

laboratory.5 He added that “there’s no trail” to show what was done with the blood
samples at the Chico laboratory before they were sent two weeks later to the Redding
laboratory: “We don’t know what was done at the Chico Lab, how it was stored.” He
did not make any chain-of-custody argument as to the buccal swabs; indeed at one point
he argued that the prosecutor wanted the jury “to believe the DNA taken from the light
switch, DNA taken from me, are the same. And because they are the same I committed a
burglary.”
B. Analysis
“In a chain of custody claim, ‘ “ [t]he burden on the party offering the evidence is
to show to the satisfaction of the trial court that, taking all the circumstances into account
including the ease or difficulty with which the particular evidence could have been
altered, it is reasonably certain that there was no alteration. [*ff] The requirement of
reasonable certainty is not met when some vital link in the chain of possession is not
accounted for, because then it is as likely as not that the evidence analyzed was not the
evidence originally received. Left to such speculation the court must exclude the
evidence. [Citations.] Conversely, when it is the barest speculation that there was
tampering, it is proper to admit the evidence and let what doubt remains go to its weight.”
[Citations.]’ [Citations.] The trial court’s exercise of discretion in admitting the
evidence is reviewed on appeal for abuse of discretion.” (People v. Catlin (2001)
26 Cal.4th 81,134 {Catlin).)
“While a perfect chain of custody is desirable, gaps will not result in the exclusion
of the evidence, so long as the links offered connect the evidence with the case and raise
no serious questions of tampering.” (M6ndez, Cal. Evidence (1993) § 13.05, p. 237,
quoted in Catlin, supra, 26 Cal.4th at p. 134.)

5 There is no evidence in the record suggesting that the Chico laboratory has the capacity
to DNA test.
10

1. Buccal Swab Evidence
Defendant challenges the strength of the chain of custody evidence as to both the
blood sample swab and the buccal swabs. But he did not mention the buccal swab
evidence in his motion in limine to exclude DNA evidence, did not object to the
admissibility of the submission form and criminalist’s report on the buccal swab evidence
when it was offered and discussed during trial, and did not give any specific reasons to
support his very general foundational objection to that evidence during the conference on
admitting exhibits. Thus his argument as to the admissibility of that evidence is forfeited.
(Evid. Code, § 353 [necessity of timely and specific objection]; People v. Partida (2005)
37 Cal.4th 428,435 [party cannot argue court erred in failing to conduct analysis it was
not asked to conduct].) We therefore consider only his challenge to the chain of custody
of the blood sample.
2. Blood Sample Evidence
First, to the extent defendant contends the trial court used the wrong standard and
misapplied the burden of proof in ruling on his motion in limine, the argument fails to
show reversible error. While it is true that the court (and the prosecutor) articulated that a
challenge in the chain of custody went only to the weight of the evidence, which is not
the law, the court then corrected its error by allowing defendant to argue to the court
regarding the allegedly inadequate chain and making a preliminary determination of
adequacy. (See Catlin, supra, 26 Cal.4th at p. 134.) Although the court found that
defendant’s showing was insufficient to exclude the blood sample evidence in limine, it
noted that the People still had the burden of establishing chain of custody at trial. In
other words, the court found that the prosecutor had sufficiently proffered that the People
could meet their burden at trial, but its ruling was tentative (“at this time”) and subject to
reconsideration when the evidence was actually offered. This ruling was well within the
court’s discretion.

11

Defendant bears the burden of showing that the trial court abused its discretion by
admitting the blood sample evidence after hearing the evidence presented at trial.
{Catlin, supra, 26 Cal.4th at p. 134.) He argues that the People failed to document
precisely where the blood sample was at every point in the timeline and to explain in
minute detail the exact means by which it was processed and handled at every step. But
absent evidence that the sample was not where it was represented to be at some point, or
that anyone could have tampered with it at any point, such arguments at most show gaps
in the chain of custody, not a missing “vital link.” {Ibid.) Defendant does not offer
evidence that tampering was reasonably likely to have occurred, but only “the barest
speculation” that it could have occurred. {Ibid.)
People v. Jimenez (2008) 165 Cal.App.4th 75, the only decision cited by defendant
in which the appellate court reversed because of an inadequately established chain of
custody, is distinguishable. There, three witnesses testified about the chain of custody of
a comparison DNA sample, but none had firsthand knowledge of their respective
testimony; as a consequence, the evidence was so lacking in foundation that it could not
be determined whether the sample had anything to do with the defendant. {Id. at pp. 7981.) In the present case, each witness called to establish chain of custody had firsthand
and personal knowledge of his or her own part in the process, and Parson’s testimony
established that the blood sample from which the DNA evidence was derived was left at
the scene ofthe burglary. Defendant has not shown reversible error as to the chain of
custody of the blood sample evidence.

n
Romero Motion
Defendant contends the trial court abused its discretion by not granting his Romero
request to strike his prior strikes. We disagree.

12

A. Background
Defendant filed a brief arguing for Romero relief on the grounds that his current
offense was not violent or life-threatening, his prior offenses were also relatively minor,
and both prior strikes were 20 years old. The People filed opposition, arguing that the
prior strikes were also residential burglaries and that defendant had numerous and
continuous contact with law enforcement both before and after the dates of the prior
strikes.
The probation report, which the trial court read and considered, stated that
defendant suffered first degree burglary convictions in 1992 and 1996. His criminal
record also included felony convictions in 1991,1993, and 2009, misdemeanor
convictions in 1989 and 1995, and parole violations in 1994, 1995,2005, and 2006.
At sentencing, the parties submitted on their briefs. The trial court first confirmed
it had “broad but not unfettered discretion to dismiss prior strikes” and announced the
relevant determinations, then found that “defendant appears to fit squarely within the
Three Strikes law because the current offense is of the same type of crime committed in
the past and the defendant has a long and continuous criminal career,” adding the
observation that “[o]ver the last 25 years [defendant] has rarely been out of prison.”
B. Analysis
The three strikes law “ ‘establishes a sentencing requirement to be applied in every
case where the defendant has at least one qualifying strike, unless the sentencing court
“conclud[es] that an exception to the scheme should be made because, for articulable
reasons which can withstand scrutiny for abuse, this defendant should be treated as
though he actually fell outside the Three Strikes scheme.” ’ [Citation.]” {People v.
Carmony (2004) 33 Cal.4th 367, 377 {Carmony).
A trial court may properly exercise its discretion to strike a defendant’s prior strike
or strikes under section 1385 only if it finds that “in light of the nature and circumstances
of his present felonies and prior serious and/or violent felony convictions, and the
13

particulars of his background, character, and prospects, the defendant may be deemed
outside the [three strikes] scheme’s spirit, in whole or in part, and hence should be treated
as though he had not previously been convicted of one or more serious and/or violent
felonies.” (People v. Williams (1998) 17 Cal.4th 148,161.)
When a trial court declines to strike a prior strike, we review its decision for abuse
of discretion. (Carmony, supra, 33 Cal.4th at pp. 374-375.) Where the court, aware of
its discretion, “ ‘balanced the relevant facts and reached an impartial decision in
conformity with the spirit of the law, we shall affirm the trial court’s ruling, even if we
might have ruled differently in the first instance’ [citation].” (Id. at p. 378)
Defendant asserts the trial court “did not consider the Williams factors....
Instead, the court focused exclusively on the classification of [defendant]’s strike
offenses, and the length of [defendant]’s criminal record.” He is mistaken. A
defendant’s offenses and the length of his criminal record fall squarely within the
Williams factors, which include “the nature and circumstances of his present felonies and
prior serious and/or violent felony convictions, and the particulars of his background.”
(People v. Williams, supra, 17 Cal.4th at p. 161.)
Defendant relies on People v. Bishop (1997) 56 Cal.App.4th 1245, at page 1250
for the proposition that a person with two strikes may still deserve less than a 25-year-tolife sentence if there are factors in mitigation. We do not disagree with this premise in
the abstract. But in both Williams and Carmony our Supreme Court has made it clear that
the law requires an individualized finding as to whether a defendant fits within the three
strikes scheme; the trial court made such a finding and we certainly cannot say it was
irrational. Indeed, it seems well-supported by the record. Defendant asserts that his prior
strikes were remote in time and apparently “quite mild” because he received the low term
on each; his current offense was not violent because no one was home and there were no
weapons involved; he adds that his crime was not sophisticated and he has a history of
mental illness. But even assuming all these points are accurate, at best they show some
14

support for the exercise of discretion in striking one of defendant’s strikes. They do not
show that the court’s decision was an abuse of that discretion. (See Carmony, supra,
33 CaWthatp. 377.)
The record supports the trial court’s finding that defendant was a repeat offender
who showed no prospects for reform and who had seldom been out of custody during his
adult life. It was not an abuse of discretion to classify him as within the spirit of the three
strikes law.

m
Senate Bill No. 1393
The parties agree that the law at that time of defendant’s sentencing did not allow
the trial court to strike a serious felony prior used to impose a five-year enhancement
under section 667, subdivision (a)(1). Senate Bill No. 1393 removed this prohibition
effective January 1,2019. (Stats. 2018, ch. 1013, §§ 1, 2.)
Relying on In re Estrada (1965) 63 Cal.2d 740 (Estrada), defendant argues and
the Attorney General agrees that these amendments apply to him because his judgment is
not yet final. We agree with the parties that under Estrada, absent evidence to the
contrary, we presume the Legislature intended a statutory amendment reducing
punishment to apply retroactively to cases not yet final on appeal. (Id. at pp. 747-748;
People v. Brown (2012) 54 Cal.4th 314, 324.)
Although the Attorney General concedes the rule of Estrada requires retroactive
application of Senate Bill No. 1393 to defendant’s case, he argues remand is nevertheless
unnecessary. He points to “the trial court’s statements at sentencing when it denied the
Romero motion and its findings about his unsuitability for probation.” We are not
persuaded. As our colleagues at the Second Appellate District recently observed, “what a
trial court might do on remand is not ‘clearly indicated’ by considering only the original
sentence.” (People v. Almanza (2018) 24 Cal.App.5th 1104,1110-1111; see also
People v. McDaniels (2018) 22 Cal.App.5th 420,425,426 [remand is required unless the
15

record shows that the sentencing court clearly indicted that it would not have exercised its
discretion].) We shall remand for the trial court’s consideration of defendant’s
argument.6
DISPOSITION
The matter is remanded for exercise of discretion and possible resentencing as
described by this opinion. The judgment is otherwise affirmed.

Duarte, J.

We concur:

Raye, P. J./

Renner, J.

6 On November 6,2019, defendant filed a request to vacate submission in order to argue
that Senate Bill No. 136, not yet effective, may apply retroactively to his section 667.5,
subdivision (b) enhancements. We denied the request, but expand our limited remand to
encompass consideration of that argument by the trial court, should defendant choose to
raise it on remand.
16

SUPREME COURT

JAN 2 2 2020

Court of Appeal, Third Appellate District - No. C084543

Jorge Navarrete Clerk

S259605

IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Plaintiff and Respondent,
v.
ROBERT LEE SIMMS, Defendant and Appellant.

The petition for review is denied.

CANTI L-SAKAU YE
ChiefJustice

6

Deputy

